Appendix A-1
SUPREME COURT OF OHIO
STATE EX REL. FELTNER
v.
CUYAHOGA CTY. BD. OF REVISION
2018-1307
March 20, 2019
CASE ANNOUNCEMENTS
MERIT DECISIONS WITHOUT OPINIONS
In Mandamus and Prohibition. Sua sponte,
alternative writ granted as to counts I and III against
respondents Cuyahoga County Board of Revision,
Armond Budish, Dennis G. Kennedy, and Michael
Gallagher. The motion to dismiss of the Cuyahoga
County Respondents is granted as to all remaining
counts in the complaint. The following briefing
schedule is set for presentation of evidence and filing
of briefs as to counts I and III pursuant to S.Ct.Prac.R.
12.05: The parties shall file any evidence they intend
to present within 20 days, relator shall file a brief
within 10 days after the filing of the evidence,
respondents shall file briefs within 20 days after the
filing of relator’s brief, and relator may file a reply
brief within 7 days after the filing of respondents’
briefs. Motions to dismiss of respondents Cuyahoga
County Land Reutilization Corporation and Mike
DeWine, Ohio Attorney General, and motion to
dismiss of Cuyahoga County Respondents as to W.
Christopher Murray II, and Cuyahoga County, are
granted and these respondents are dismissed as
parties from the case. Sua sponte, case to be scheduled
for oral argument before the full court.
O’Connor, C.J., and Kennedy, French, and
Donnelly, JJ., concur.

Appendix A-2
Fischer, J., would also grant an alternative writ
as to counts V and VI.
DeWine, J., dissents and would grant
respondents’ motions to dismiss in full.
Stewart, J., not participating.

Appendix B-1
FILED
MAR 20 2019
CLERK OF COURT
SUPREME COURT OF OHIO
The Supreme Court of Ohio
State of Ohio, ex rel.
Elliott G. Feltner
v.
Cuyahoga County,
Ohio Board of
Revision, et al.

Case No. 2018-1307
IN MANDAMUS AND
PROHIBITION
(CORRECTED)
ENTRY

This cause originated in this court on the filing
of a complaint for writs of mandamus and prohibition.
Upon consideration thereof, it is ordered by the
court, sua sponte, that an alternative writ is granted
as to counts I & III against respondents Cuyahoga
County Board of Revision, Armond Budish, Dennis G.
Kennedy, and Michael Gallagher. The motions to
dismiss of respondents Cuyahoga County Board of
Revision, Armond Budish, Dennis G. Kennedy, and
Michael Gallagher, are granted as to all remaining
counts in the complaint. The following briefing
schedule is set for presentation of evidence and filing
of briefs as to counts I and III pursuant to S.Ct.Prac.R.
12.05:
The parties shall file any evidence they intend
to present within 20 days of the date of this entry;
relator shall file a brief within 10 days of the filing of
the evidence; respondents shall file a brief within 20
days after the filing of re1ator’s brief; and relator may
file a reply brief within 7 days after the filing of
respondents’ brief.

Appendix B-2

It is further ordered that the motions to dismiss
of respondents, Cuyahoga County Land Reutilization
Corporation, Mike DeWine, Ohio Attorney General,
W. Christopher Murray, II, and Cuyahoga County are
granted, and these respondents are dismissed as
parties from this case.
It is further ordered, sua sponte, that this case
be scheduled for oral argument before the full court.
/s Maureen O’Connor
Maureen O’ Connor
Chief Justice
Official Case Announcement can be found at
http://www.supremecourt.ohia.gov/ROD/ docs/

Appendix C-1
SUPREME COURT OF OHIO
SLIP OPINION NO. 2020-OHIO-3080
THE STATE EX REL. FELTNER v. CUYAHOGA
COUNTY BOARD OF REVISION,
ET AL.
Prohibition—R.C. 323.66—Writ sought to invalidate
a foreclosure adjudication by a county board of
revision—Board of revision did not patently and
unambiguously lack jurisdiction—Writ denied.
(No. 2018-1307—Submitted November 13, 2019—
Decided May 28, 2020.)
IN PROHIBITION.
______________________
FRENCH, J.
{¶ 1} R.C. 323.66(A) authorizes boards of
revision to adjudicate foreclosures involving certain
tax-delinquent abandoned land. In this original
action, an owner whose property was the subject of a
board-of-revision foreclosure seeks a writ of
prohibition to invalidate the foreclosure adjudication.
The owner contends that the board of revision lacked
authority to foreclose on his property because the
statutes under which the board proceeded are
unconstitutional. We deny the writ because the board
of revision did not patently and unambiguously lack
jurisdiction when it proceeded in the foreclosure
action at issue.

Appendix C-2

Background
{¶ 2} In 2006, the General Assembly passed
legislation authorizing boards of revision to
adjudicate
tax-foreclosure
actions
involving
abandoned land. See 2006 Sub.H.B. No. 294, 151 Ohio
Laws, Part IV, 7334. These proceedings are designed
to be an expeditious alternative to conventional
judicial foreclosures. See R.C. 323.67(B)(1) and (C).
Among other things, the law allows a board of
revision, under certain circumstances, to order the
sheriff to transfer property directly to a county landreutilization corporation (or some other statutorily
eligible political subdivision), without the need for an
appraisal and public auction. R.C. 323.65(J),
323.71(A)(1), 323.73(G), 323.78.
{¶ 3} In June 2017, respondent Cuyahoga
County Board of Revision (“BOR”) entered a judgment
of foreclosure concerning real property owned by
relator, Elliott G. Feltner. After its judgment, the
BOR transferred Feltner’s property to the Cuyahoga
County Land Reutilization Corporation (“the Land
Bank”) under R.C. 323.78. The Land Bank later
transferred the property to a third party.
{¶ 4} More than a year later, Feltner filed this
original action, asserting multiple prohibition and
mandamus claims against the BOR, its members,1 the
Cuyahoga County treasurer, Cuyahoga County, the
Land Bank, and the Attorney General. We previously
dismissed the Cuyahoga County treasurer, Cuyahoga
County, the Land Bank, and the Attorney General as
The members of the BOR are respondents Armond Budish,
Michael Gallagher, and Michael Chambers, who is substituted
automatically for former board member Dennis G. Kennedy as a
party to this action. S.Ct.Prac.R. 4.06(B).

1

Appendix C-3
parties. 155 Ohio St.3d 1403, 2019-Ohio-943, 119
N.E.3d 431. But we granted an alternative writ of
prohibition as to two of the claims against the BOR
and its members. Id. Those claims present the
question whether the statutes under which the BOR
proceeded violate the separation-of-powers doctrine or
the due-process clauses of the United States and Ohio
Constitutions.
{¶ 5} The case is now ripe for our final
determination.
Analysis
{¶ 6} To be entitled to a writ of prohibition, a
relator ordinarily must prove that a lower tribunal is
about to exercise judicial or quasi-judicial power
without authority and that there is no adequate
remedy in the ordinary course of the law. State ex rel.
Sliwinski v. Burnham Unruh, 118 Ohio St.3d 76,
2008-Ohio-1734, 886 N.E.2d 201, ¶7. This standard
reflects the well-established rule that prohibition “is a
preventive rather than a corrective remedy, and
issues only to prevent the commission of a future act,
and not to undo an act already performed.” High,
Treatise
on
Extraordinary
Legal
Remedies,
Embracing
Mandamus,
Quo
Warranto
and
Prohibition, Section 766, at 606 (2d Ed.1884).
{¶ 7} The BOR is not about to exercise power
concerning the property Feltner once owned—Feltner
commenced this prohibition action more than a year
after the BOR entered its final judgment. The BOR
and its members contend that this fact alone
precludes us from granting the writ in this case.
{¶ 8} But in State ex rel. Adams v. Gusweiler,
30 Ohio St.2d 326, 285 N.E.2d 22 (1972), paragraph
two of the syllabus, we recognized an exception to the

Appendix C-4
general rule, holding that a writ of prohibition may
issue correctively to arrest the continuing effects of an
order when there was “a total want of jurisdiction” on
the part of the lower tribunal. A few years after
Gusweiler, we began to associate the exception with
the modifying phrase “patent and unambiguous.” See
State ex rel. Gilla v. Fellerhoff, 44 Ohio St.2d 86, 8788, 338 N.E.2d 522 (1975). We also began using that
term with respect to a related exception adopted in
Gusweiler at 329—namely, that the availability of an
adequate remedy is immaterial when a tribunal
patently and unambiguously lacks jurisdiction. See,
e.g., State ex rel. Koren v. Grogan, 68 Ohio St.3d 590,
595, 629 N.E.2d 446 (1994). Over time, we have issued
writs of prohibition to correct the results of
unauthorized exercises of authority, notwithstanding
the availability of an appeal, if the tribunal patently
and unambiguously lacked jurisdiction to enter the
judgment at issue. See, e.g., State ex rel. V.K.B. v.
Smith, 142 Ohio St.3d 469, 2015-Ohio-2004, 32
N.E.3d 452, ¶ 8. And so, the narrow issue before us is
whether the BOR patently and unambiguously lacked
jurisdiction to adjudicate the foreclosure of Feltner’s
property.
{¶ 9} We typically will not hold that a tribunal
patently and unambiguously lacked jurisdiction if the
tribunal “had at least basic statutory jurisdiction to
proceed.” Gusweiler at 329. Therefore, in prohibition
cases involving statutorily created tribunals of limited
jurisdiction, we ordinarily ask whether the General
Assembly gave the tribunal authority to proceed in the
matter at issue. See, e.g., State ex rel. Goldberg v.
Mahoning Cty. Probate Court, 93 Ohio St.3d 160, 162,
753 N.E.2d 192 (2001); State ex rel. Natalina Food Co.
v. Ohio Civ. Rights Comm., 55 Ohio St.3d 98, 100, 562
N.E.2d 1383 (1990).

Appendix C-5
{¶ 10} Here, the legislature clearly gave the
BOR statutory authority to proceed. See R.C. 323.25
and 323.65 through 323.79. But this case presents a
more complicated issue because Feltner contends that
the BOR’s statutory authority is unconstitutional. The
question, then, is the extent to which we may consider
the merit of Feltner’s constitutional challenge in
deciding
whether
the
BOR
patently
and
unambiguously lacked jurisdiction.
{¶ 11} To date, we have not squarely explained
what constitutes a patent and unambiguous lack of
jurisdiction when a relator seeks to undo a final
judgment by challenging the constitutionality of a
lower tribunal’s statutory authority. But our case law
includes numerous examples in which we held that a
tribunal did not patently and unambiguously lack
jurisdiction under the specific law or facts at the time
of the challenged proceedings. Most notably, in
Sliwinski, 118 Ohio St.3d 76, 2008-Ohio-1734, 886
N.E.2d 201, at ¶ 21, we declined to resolve a
constitutional challenge to legislation in view of the
rule that a statute is presumed to be constitutional. In
other cases, we indicated that a tribunal cannot
patently and unambiguously lack jurisdiction if the
absence of jurisdiction is not clear under then-existing
law. See State ex rel. Worrell v. Athens Cty. Court of
Common Pleas, 69 Ohio St.3d 491, 496, 633 N.E.2d
1130 (1994) (common pleas court’s lack of jurisdiction
was not patent and unambiguous prior to enactment
of new statute conferring exclusive jurisdiction on the
Court of Claims); Natalina Food Co., 55 Ohio St.3d at
100, 562 N.E.2d 1383 (relator could not demonstrate
tribunal’s patent and unambiguous lack of
jurisdiction in the absence of any statutory or
constitutional authority that “definitively” prevented
its exercise of jurisdiction); State ex rel. Henry v. Britt,
67 Ohio St.2d 71, 75, 424 N.E.2d 297 (1981) (court’s
lack of jurisdiction was not patent and unambiguous

Appendix C-6
when the underlying jurisdictional question was “not
well settled”). And in State ex rel. McSalters v. Mikus,
62 Ohio St.2d 162, 163, 403 N.E.2d 1215 (1980), we
declined to hold that a tribunal patently and
unambiguously lacked jurisdiction because the
jurisdictional question turned on the specific facts of
the case. Importantly, we did not suggest in these
prohibition cases that the claims presented were
incapable of resolution or that they could not be
resolved at the appropriate time in an appropriate
forum. We simply concluded that the respondents
named in each did not obviously lack jurisdiction
under the law at the time.
{¶ 12} Cases in which we have found an obvious
lack of jurisdiction support the idea that we must
examine then-existing law (e.g., a statute, a rule, or
precedent) when determining whether a tribunal
patently and unambiguously lacked jurisdiction. See,
e.g., State ex rel. Sanquily v. Lucas Cty. Court of
Common Pleas, 60 Ohio St.3d 78, 80, 573 N.E.2d 606
(1991) (“Although R.C. 2305.01 gives common pleas
courts original jurisdiction in civil matters generally,
R.C. 2743.02(F) patently and unambiguously takes it
away from them in a specific class of civil cases”); Ohio
Dept. of Adm. Servs., Office of Collective Bargaining v.
State Emp. Relations Bd., 54 Ohio St.3d 48, 52-53, 562
N.E.2d 125 (1990) (holding that a court lacked
jurisdiction to hear an appeal under existing
precedent interpreting a statute); State ex rel. Safeco
Ins. Co. of Am. v. Kornowski, 40 Ohio St.2d 20, 21-22,
317 N.E.2d 920 (1974) (holding that a rule of appellate
procedure patently and unambiguously did not confer
jurisdiction on a court).
{¶ 13} In this light, the answer to the narrow
question before us becomes clear. When a relator in a
prohibition action seeks to undo a final judgment by
challenging the constitutionality of the statutory

Appendix C-7
authority under which a lower tribunal acted, a court
may consider only whether the authorizing statute
was clearly unconstitutional under precedent existing
at the time of the lower tribunal’s judgment in
determining whether the lower tribunal patently and
unambiguously lacked jurisdiction. This rule is
consistent with our caselaw, which recognizes that the
limited purpose of a writ of prohibition is to police
exercises of “ultra vires jurisdiction” by lower
tribunals. State ex rel. Nolan v. ClenDening, 93 Ohio
St. 264, 112 N.E. 1029 (1915), paragraphs three and
four of the syllabus. In reality, a different rule—one
that would allow for the issuance of a writ of
prohibition to undo the outcome of a proceeding even
when a tribunal exercised authority under a
presumptively valid statute—would expand the writ
beyond its limited purpose.
{¶ 14} In this case, at the time of its judgment,
the BOR acted with apparent (and presumptively
valid) statutory authority. We cannot conclude that
the BOR patently and unambiguously lacked
jurisdiction to proceed under these circumstances. We
therefore have no authority to undo the BOR’s final
judgment and need not consider the merit of Feltner’s
constitutional challenge. See Smith v. Leis, 106 Ohio
St.3d 309, 2005-Ohio-5125, 835 N.E.2d 5, ¶ 54 (“courts
decide constitutional issues only when absolutely
necessary”).
Writ denied.
DONNELLY
concur.

and

HENDRICKSON,

JJ.,

KENNEDY, J., concurs in judgment only.
FISCHER, J., concurs in judgment only, with
an opinion joined by O’CONNOR, C.J.

Appendix C-8

DEWINE, J., concurs in judgment only, with an
opinion.
ROBERT A. HENDRICKSON, J., of the
Twelfth District Court of Appeals, sitting for
STEWART, J.
_________________
only.

FISCHER, J., concurring in judgment

{¶ 15} I agree with the lead opinion’s conclusion
that we should deny the writ of prohibition against
respondents Cuyahoga County Board of Revision
(“BOR”), Armond Budish, Michael Chambers, and
Michael Gallagher, albeit for different reasons.
Therefore, I respectfully concur in judgment only.
{¶ 16} I also write to express my concerns with
this court’s decision to dismiss counts V and VI alleged
in the complaint filed by relator, Elliott G. Feltner. See
State ex rel. Feltner v. Cuyahoga Cty. Bd. of Revision,
155 Ohio St.3d 1403, 2019-Ohio-943, 119 N.E.3d 431.
I. Patent and Unambiguous
Lack of Jurisdiction
{¶ 17} In his petition for a writ of prohibition,
Feltner alleged that the BOR patently and
unambiguously lacked jurisdiction because R.C.
323.65 et seq., which gives a board of revision the
ability to adjudicate tax-foreclosure proceedings,
violates the separation-of-powers doctrine and that a
conflict of interest created by the interplay between
the statutory scheme and the Cuyahoga County
Charter deprived him of due process.

Appendix C-9
{¶ 18} The lead opinion avoids the
constitutional issues presented by Feltner by
concluding simply that the BOR did not patently and
unambiguously lack jurisdiction to enter a judgment
of foreclosure on the real property owned by Feltner
because the statutory scheme, which provided the
BOR with the ability to adjudicate a tax foreclosure,
had not been held unconstitutional by existing
precedent at the time that the BOR held its hearing. I
agree with the other opinion concurring in judgment
only to the extent that the reasoning in the lead
opinion is circular: this court’s consideration of the
issue is informed by the Ohio Constitution, and a lack
of jurisprudence on an issue should not bar this court
from determining matters related to another branch
of government’s alleged use of judicial power, which is
reserved to the courts under Article IV, Section 1 of
the Ohio Constitution. See State ex rel. Ohio Academy
of Trial Lawyers v. Sheward, 86 Ohio St.3d 451, 467,
715 N.E.2d 1062 (1999) (the court must “jealously
guard the judicial power against encroachment from
the other two branches of government”).
{¶ 19} Therefore, I believe that the
constitutional issues in this case cannot and should
not be avoided. I believe that this court should address
Feltner’s claims that the BOR patently and
unambiguously lacked jurisdiction based on a
violation of the separation-of-powers doctrine and his
due-process rights.
A. Separation of Powers
{¶ 20} The separation-of-powers doctrine is
implicitly embedded in the Ohio Constitution. S.
Euclid v. Jemison, 28 Ohio St.3d 157, 159, 503 N.E.2d
136 (1986). And all judicial power is conferred on the
courts of this state pursuant to Article IV, Section 1 of
the Ohio Constitution.

Appendix C-10

{¶ 21} The Ohio Constitution prohibits the
General Assembly from encroaching upon the courts’
judicial power. Article II, Section 32, Ohio
Constitution; see Ohio Academy of Trial Lawyers, 86
Ohio St.3d at 467, 715 N.E.2d 1062. The General
Assembly cannot confer upon tribunals, other than
courts, powers that are strictly and conclusively
judicial. Fassig v. State ex rel. Turner, 95 Ohio St. 232,
116 N.E. 104 (1917), paragraph one of the syllabus,
overruled in part on other grounds by Griffin v. HydraMatic Div., Gen. Motors Corp., 39 Ohio St.3d 79, 529
N.E.2d 436 (1988).
{¶ 22} To facilitate the collection of taxes, the
General Assembly has empowered boards of revision
to foreclose on certain tax-delinquent properties and
to order direct transfers to qualified parties, in this
case, the Cuyahoga County Land Reutilization
Corporation (“Land Bank”). See R.C. 323.66(A) and
323.78. The issue that we must resolve is whether the
adjudication of tax foreclosures is strictly and
conclusively an exercise of judicial power.
{¶ 23} There is no exact rule for determining
what powers may or may not be assigned by law to
each branch of government. State ex rel. Atty. Gen. v.
Harmon, 31 Ohio St. 250, 258 (1877). In order to
determine what constitutes judicial power within the
meaning of our Constitution, we look to the common
law and the history of our institutions as they existed
before and at the time of the adoption of our
Constitution. Id.
{¶ 24} The courts of this state have always held
the power to adjudicate matters in equity, like
foreclosures. See St. Clair v. Morris, 9 Ohio 15, 17
(1839). However, the power to tax is reserved for the
legislative branch. Bank of Toledo v. Toledo, 1 Ohio St.

Appendix C-11
622, 701 (1853) (the right of taxation is a branch of the
legislative authority); see also Murray’s Lessee v.
Hoboken Land & Improvement Co., 59 U.S. 272, 281,
15 L.Ed. 372 (1856), and Musser v. Adair, 55 Ohio St.
466, 45 N.E. 903 (1896) (citing Murray’s Lessee
favorably). Thus, the statutory scheme at issue
creates a unique intersection of judicial and legislative
power. Because of this unique intersection of power, it
is difficult to determine that the adjudication of tax
foreclosures is strictly and conclusively an exercise of
judicial power.
{¶ 25} Therefore, Feltner has not clearly and
convincingly established that the BOR patently and
unambiguously lacked jurisdiction to adjudicate the
tax foreclosure based simply on the separation-ofpowers issue.
B. Due Process
{¶ 26} Feltner also raised a due-process claim
in arguing that the BOR patently and unambiguously
lacked jurisdiction to adjudicate the foreclosure of his
property. He contends that many of the individuals
who participated in this tax foreclosure and the
transfer of his property to the Land Bank had aligned
interests: (1) the county treasurer prosecuted the
action under R.C. 323.25, and because the county
executive appointed the treasurer, their interests are
aligned, (2) the county executive and county fiscal
officer sit on the BOR, and because the county
executive appointed the fiscal officer, their interests
are aligned, (3) the county treasurer invoked the
alternative right-of-redemption period under R.C.
323.78, thus allowing for a direct transfer of the
property to the Land Bank, and (4) because the county
executive and county treasurer are on the Land
Bank’s board, they have an interest in prosecuting
and deciding tax-foreclosure cases that result in direct

Appendix C-12
transfers to the Land Bank. Feltner maintains that
because the prosecutor’s, the adjudicative body’s, and
the beneficiary of the adjudication’s interests in his
property overlapped, his due-process rights were
violated.
{¶ 27} I agree with Feltner that the interplay
between the Cuyahoga County Charter and the
statutory scheme at issue presents a troubling
scenario. The similar interests of the state, the BOR,
and the Land Bank—prosecutor, judge, and
beneficiary—may
create
an
appearance
of
impropriety and partiality. Such an appearance could
cause the public to lose confidence in the integrity of
this adjudicative process, regardless of whether all
procedures were followed by the parties involved. The
appearance of impropriety and partiality is always a
concern of the judiciary when we decide cases, see
Jud.Cond.R. 1.2 and 2.2, and I do not see why it would
not also be a concern for a board of revision in a quasijudicial proceeding. It is difficult to imagine how
Ohioans can have due process of law in tax-foreclosure
proceedings when there is even a slight question of
impropriety or partiality due to a conflict of interest
created by the interplay between the statutory scheme
and a county charter.
{¶ 28} But while I am sympathetic to Feltner’s
situation, this possible conflict of interest does not
demonstrate
that
the
BOR
patently
and
unambiguously lacked jurisdiction to adjudicate the
tax foreclosure. Rather, Feltner raises a due-process
claim that comes too late, a claim that could have been
and should have been addressed—if he had requested
to have the proceeding transferred “to a court of
competent jurisdiction to be conducted in accordance
with the applicable laws,” R.C. 323.69(B)(2). See also
R.C. 323.691(A)(1) and 323.70(B). Therefore, I would
conclude that Feltner has not demonstrated by clear

Appendix C-13
and convincing evidence that the BOR patently and
unambiguously lacked jurisdiction based upon a
possible conflict-of-interest issue. But I would
reiterate that this is likely an issue that needs to be
reviewed further by the General Assembly or
Cuyahoga County so that Ohioans have full
confidence in the fundamental fairness of these
foreclosure proceedings.
II. Dismissal of Unauthorized-Taking Counts
{¶ 29} This court has previously dismissed
counts V and VI of Feltner’s complaint, both of which
raised issues related to an unauthorized taking of
property by the government. See Feltner, 155 Ohio
St.3d 1403, 2019-Ohio-943, 119 N.E.3d However, I
would have granted an alternative writ on those
counts and ordered briefing. Id.
{¶ 30} I did not write a dissenting opinion to
the order dismissing these claims, but on further
review, it has become apparent that the dismissal of
those claims is exceedingly bothersome. There is no
doubt that the facts alleged by Feltner in this case are
disconcerting, especially in light of the fact that his
allegations in counts V and VI had to be taken as true.
Kenty v. Transamerica Premium Ins. Co., 72 Ohio
St.3d 415, 418, 650 N.E.2d 863 (1995) (when
reviewing a motion to dismiss, all material allegations
in the complaint must be construed as true). While I
express no opinion on the merits of Feltner’s takings
claims, after reviewing the record and the parties’
briefs, I wonder if the claims would have had merit.
{¶ 31} I recognize that there were arguably
some procedural issues with Feltner’s takings claims,
such as whether Feltner had properly asserted a claim
in mandamus. But I would have welcomed briefing on
the issue, because I am bothered by the possibility
that the BOR foreclosed on Feltner’s property, which

Appendix C-14
was worth around $144,500 and on which he owed
$65,189.94 in taxes, and then transferred that
property to the Land Bank, all without providing him
notice of the final judgment and without remitting the
remaining value of the property to Feltner. Indeed,
Feltner claims that the property was not sold but was
merely transferred to a third party after the Land
Bank received the deed to the property. The whole
scheme is unsettling and just seems wrong. Thus,
although I previously voted to grant an alternative
writ in regard to counts V and VI, after reviewing the
evidence and the briefs that have now been submitted,
I renew my objection to this court’s failure to address
those claims. I believe that the court should have
granted an alternative writ in regard to those counts,
if only to have peace of mind that Feltner received
some due process and that the government did not
receive a windfall at Feltner’s expense.
III. Conclusion
{¶ 32} Because Feltner has not demonstrated
that the BOR patently and unambiguously lacked
jurisdiction to adjudicate his tax foreclosure, and
because he had an adequate remedy at law, I concur
in the judgment denying his petition for a writ of
prohibition. To fully adjudicate the issues before this
court, I believe that an alternative writ should have
been granted in regard to counts V and VI of Feltner’s
complaint. I encourage the General Assembly and
Cuyahoga County to evaluate this process to ensure
transparent and impartial proceedings, because the
right to private property is an original right and is one
of the primary and most sacred objects of the
government to secure and protect, see Bank of Toledo,
1 Ohio St. at 632. Therefore, I respectfully concur in
judgment only.

Appendix C-15
O’CONNOR, C.J., concurs in the foregoing
opinion.
_________________
DEWINE, J., concurring in judgment only.
{¶ 33} The lead opinion would deny the writ on
the ground that the Cuyahoga County Board of
Revision did not patently and unambiguously lack
jurisdiction. It reaches this conclusion because there
was clear statutory authority for the board’s actions
and none of our prior case law had established that
the statutory grant of authority was unconstitutional.
It thereby avoids addressing the constitutional
challenges Feltner raises to the board’s actions in this
case. As I explain, I do not agree that we can avoid the
constitutional issues. But because I do not believe that
Feltner’s constitutional challenges have any merit, I
concur in the judgment denying the writ.
{¶ 34} The lead opinion rightly notes that for
us to undo the board’s actions through a writ of
prohibition, Feltner must establish that the board
patently and unambiguously lacked jurisdiction over
the tax-foreclosure proceedings. And the lead opinion
also rightly emphasizes that we normally do not
address constitutional questions in extraordinary writ
actions when there is a remedy at law—that is, when
those questions could have been addressed through
the normal process in the courts of common pleas or
the courts of appeals. See State ex rel. Scott v.
Cleveland, 112 Ohio St.3d 324, 2006-Ohio-6573, 859
N.E.2d 923, ¶ 22.
{¶ 35} But in this case, Feltner brings a
separation-of-powers claim, arguing that the statute
that ostensibly gives the board power over the
foreclosure proceeding unconstitutionally usurps a

Appendix C-16
judicial function. Unlike many other kinds of
constitutional claims, a separation-of-powers claim
goes to the basic authority of a government entity.
Feltner is not arguing simply that the legislature
enacted a statute that exceeded its authority but
rather that the tribunal that heard his case lacked the
authority to act. Thus, the challenge he brings is akin
to those we typically consider in original writ actions
when we determine if there is a patent and
unambiguous lack of jurisdiction.
{¶ 36} Thus, unlike the lead opinion, I would
proceed to the next question: is Feltner right? Did the
tribunal that decided his case lack the authority to
act? Do the authorizing statutes unconstitutionally
usurp judicial functions? The lead opinion sensibly
notes that to assess whether a tribunal patently and
unambiguously lacks jurisdiction, we must look to
then-existing law—that is, the law at the time that
the tribunal acted. One would think that this would
require an examination of the statutes and
constitutional provisions in effect at the time of a
tribunal’s decision. But instead the lead opinion says
what really matters is whether there is any precedent
establishing
that
a
tribunal’s
action
is
unconstitutional. Indeed, the lead opinion suggests
that “a court may consider only whether the
authorizing statute was clearly unconstitutional
under precedent existing at the time of the lower
tribunal’s judgment in determining whether the lower
tribunal patently and unambiguously lacked
jurisdiction.” Lead opinion at ¶ 13. This reasoning
turns the judicial role on its head. Whether a tribunal
lacks jurisdiction under the Ohio Constitution hinges
not on what this court has said but on what the
Constitution requires. We are subservient to the
Constitution. It is not subservient to us. I therefore do
not think that Feltner’s constitutional challenges can
be avoided in the way that the lead opinion proposes.

Appendix C-17
In order to assess whether there is a patent and
unambiguous lack of jurisdiction, we must address
Feltner’s separation-of-powers arguments.
{¶ 37} Feltner’s arguments come in two
varieties. The first seeks to establish that the statute
violates the separation-of-powers doctrine because it
involves an improper consolidation of executive and
judicial functions in the board. This argument fails
because the statutory scheme allows independent
judicial assessment by transferring the case to a court
prior to an administrative hearing under R.C.
323.70(B) or by de novo appeal to the court of common
pleas under R.C. 323.79. We have held that the
availability of an appeal to a court is sufficient to avoid
an unconstitutional consolidation of powers. See
Stanton v. State Tax Comm., 114 Ohio St. 658, 664,
681-682, 151 N.E. 760 (1926). Independent de novo
review by the judiciary means that governmental
powers are not functionally consolidated in one
branch of government or in one entity.2
{¶ 38} The second line of argument is not so
much concerned with the consolidation of multiple
functions as with the usurpation of the judicial
function by an executive agency. On this line of
reasoning, the objection is that the board is doing a
kind of activity—adjudication—that it cannot
constitutionally do. This argument faces an uphill
climb since it has never been the case that judicial,
Feltner protests that he was never notified of the
board’s decision and that this deprived him of his right
to appeal. Whether or not that argument is sound, it
doesn’t bear on the jurisdiction of the board, and
hence, cannot be used to support Feltner’s claim for a
writ of prohibition.
2

Appendix C-18
executive, and legislative functions are cleanly
separated in our constitutional scheme. See Fairview
v. Giffee, 73 Ohio St. 183, 186, 76 N.E. 865 (1905). And
there are a host of constitutionally permissible
activities performed by executive units that are quasijudicial in nature. See, e.g., State ex rel. Stewart v.
Clinton Cty. Bd. of Elections, 124 Ohio St.3d 584,
2010-Ohio-1176, 925 N.E.2d 601, ¶ 16. So, one cannot
argue that an activity is judicial and hence improperly
exercised by the executive branch merely by pointing
out that the executive activity has some of the
characteristics that are paradigmatic of judicial
activity—taking evidence, hearing claims and
arguments, etc. See Fassig v. State ex rel. Turner, 95
Ohio St. 232, 116 N.E. 104 (1917), paragraph two of
syllabus. Rather, Feltner must show that the specific
type of quasi-judicial proceeding at issue here may not
be conducted by the executive branch.
{¶ 39} Does the Constitution prohibit the
administrative handling of a tax proceeding like this
one? As a general rule, the Constitution is to be
“interpreted with reference to the usages and customs
* * * at the time of its adoption.” De Camp v.
Archibald, 50 Ohio St. 618, 625, 35 N.E. 1056 (1893).
As noted above, there are no clean conceptual
boundaries to draw around the kinds of activities that
are exclusively judicial, executive, or legislative. Thus,
in separation-of-powers cases, it is especially
important to look to historical practice. See Zivotofsky
v. Kerry, 576 U.S. ___, 135 S.Ct. 2076, 2091, 192
L.Ed.2d 83 (2015). The problem for Feltner is that
when the Ohio Constitution was adopted in the middle
part of the 19th century, tax-levy and foreclosure
matters were handled by the executive branch. An
1856 case makes this point clear. Murray’s Lessee v.
Hoboken Land & Improvement Co., 59 U.S. 272, 282,
15 L.Ed. 372 (1856). As the United States Supreme
Court explained, tax recovery from tax debtors could

Appendix C-19
proceed through a summary-administrative process.
This is because “there are few governments which do
or can permit their claims for public taxes, either on
the citizen or the officer employed for their collection
or disbursement, to become subjects of judicial
controversy.” Id.; see also Caleb Nelson, Adjudication
in the Political Branches, 107 Colum.L.Rev. 559, 589590 (2007) (noting that the “traditional power of
taxation enabled the government to take
authoritative actions adverse to core private rights
without any ‘judicial’ involvement”).
{¶ 40} Similarly, the Supreme Court rejected
the argument that the levy and sale of property to
secure payment of a tax debt violated due-process
protections because it was done through an
administrative process. Springer v. United States, 102
U.S. 586, 592-594, 26 L.Ed. 253 (1880). The court
reasoned that with regard to tax proceedings, “[t]he
idea that every tax-payer is entitled to the delays of
litigation is unreason. If the laws here in question
involved any wrong or unnecessary harshness, it was
for Congress, or the people who make congresses, to
see that the evil was corrected.” Id. at 594. And
around the same time, this court observed that
[t]he people of this country, in their
colonial and subsequent history, have
always collected taxes through the
agency of administrative officers. The
courts have remained open to those who
could show that they had been aggrieved;
but, that the state should resort to the
courts for the purpose of making
collections * * * has not been allowed
* * *.
Adler v. Whitbeck, 44 Ohio St. 539, 570, 9 N.E. 672
(1887).

Appendix C-20

{¶ 41} The statutory scheme for tax collection
in the middle part of the 19th century also supports
the conclusion that tax proceedings like this one could
permissibly be given over to executive authorities. In
an 1832 case, this court explained the statutory
process for a land sale associated with a tax lien.
Carlisle’s Lessee v. Longworth, 5 Ohio 368, 371-373
(1832), citing 23 Ohio Laws 89. That procedure
included the following steps: (1) the tax collector
would give the county auditor a list of delinquent
taxpayers and certify under oath as to its veracity, (2)
the county auditor would make a list of all lands noted
as delinquent and would impose a penalty and publish
the tax bill plus interest and penalty, (3) the auditor
would then record and certify the publication, (4) the
county collector would then hold a sale of the lands
mentioned in the advertisement and still delinquent.
Id. In short, it was a procedure that occurred outside
the courts.
{¶ 42} The upshot of all of this is that as a
matter of historical practice, tax assessment was
handled by the executive branch of government and
did not require judicial involvement. The result is that
there cannot be a separation-of-powers problem with
the administrative process at issue here. For that
reason, Feltner has not shown that the board lacks
jurisdiction over this matter. I therefore concur only
in the judgment denying the writ.
_________________
The Dann Law Firm Co., L.P.A., Marc E. Dann,
Whitney Kaster, and Brian D. Flick; and Andrew M.
Engel Co., L.P.A., and Andrew M. Engel, for relator.
Michael C. O’Malley, Cuyahoga County
Prosecuting Attorney, and Charles E. Hannan and

Appendix C-21
Adam Jutte, Assistant Prosecuting Attorneys, for
respondents.
Dave Yost, Attorney General, Benjamin M.
Flowers, State Solicitor, and Michael J. Hendershot,
Chief Deputy Solicitor, urging denial of the writ for
amicus curiae Ohio Attorney General.
Roetzel & Andress, L.P.A., and Stephen W.
Funk, urging denial of the writ for amici curiae
Cuyahoga County Land Reutilization Corporation
and Ohio Land Bank Association.
Julia R. Bates, Lucas County Prosecuting
Attorney, and Suzanne Cotner Mandros, Assistant
Prosecuting Attorney, urging denial of the writ for
amicus
curiae
Ohio
Prosecuting
Attorneys
Association.
Herman Law, L.L.C., and Edward F. Herman,
urging denial of the writ for amicus curiae County
Treasurers Association of Ohio.
Frances Shaiman Lesser; and Pappas &
Associates and Thomas P. Pappas, urging denial of
the writ for amicus curiae County Auditors’
Association of Ohio.
_________________

Appendix D-1
Supreme Court of Ohio Clerk of Court –
Filed September 17, 2018 - Case No. 2018-1307
IN THE SUPREME COURT OF OHIO
THE STATE OF OHIO,
ex rel.
ELLIOTT G FELTNER
907 EAST 214TH ST
CLEVELAND, OH 44119
RELATOR

*
*
*
*

-vs-

*

CUYAHOGA COUNTY,
BOARD OF REVISION
2079 East Ninth Street
Cleveland, OH 44115

*

and
DENNIS G KENNEDY,
FISCAL OFFICER OF
CUYAHOGA
COUNTY, OHIO
2079 East Ninth Street
Cleveland, OH 44115

CASE NO.

*
*
*
*
*
*

and

*

MICHAEL GALLAGHER
CUYAHOGA COUNTY
COUNCIL MEMBER
2079 East Ninth Street
Cleveland, OH 44115

*
*
*

Original Action
in Prohibition
and Mandamus

Appendix D-2
and

*

W. CHRISTOPHER MURRAY
II, TREASURER OF
CUYAHOGA COUNTY, OHIO
2079 East Ninth Street
Cleveland, OH 44115

*

and

*

CUYAHOGA COUNTY LAND
REUTILIZATION
CORPORATION
812 Huron Road E,
Suite 800
Cleveland, OH 44115

*

CUYAHOGA COUNTY, OHIO
2079 East Ninth Street
Cleveland, OH 44115
and
MIKE DEWINE, ATTORNEY
GENERAL OF THE STATE
OF OHIO
30 E. Broad St.,
14th Floor
Columbus, OH 43215
RESPONDENTS

*
*

*
*
*
*
*
*
*
*
*
*

_________________________________________________
COMPLAINT FOR WRITS OF PROHIBITION
AND MANDAMUS WITH SUPPORTING
AFFIDAVIT
________________________________________________

Appendix D-3
Marc E. Dann (0039425)
Whitney Kaster
(0091540)
Brian D. Flick (0081605)
THE DANN LAW FIRM
CO., LPA
P.O. Box 6031040
Cleveland, OH 44103
(216) 373-0539 –
Main Office
(216) 373-0536 - Fax
notices@dannlaw.com

Michael C. O’Malley, Esq.
Cuyahoga County
Prosecutor
The Justice Center,
Courts Tower 1200
Ontario Street,
9th Floor
Cleveland, Ohio 44113

Counsel for Relator
INTRODUCTION
Relator used to own a parcel of commercial
property in Cleveland. The Cuyahoga County Fiscal
Officer valued the property at $144,500.00. He doesn’t
own that property any more. It was transferred by
Sheriff’s Deed to the Cuyahoga County Land
Reutilization Corporation pursuant to an order of
foreclosure issued by the Cuyahoga County Board of
Revision. The deed was not issued because the
Cuyahoga County Land Reutilization Corporation
purchased the property at a foreclosure sale. Rather,
title to Relator’s property was directly transferred
because the Cuyahoga County Land Reutilization
Corporation asked for it. No money changed hands;
the County collected no real estate taxes.
But the Cuyahoga County Land Reutilization
Corporation wasn’t the entity that ultimately
benefited from the foreclosure case. Soon after it
received title to Feltner’s property, the Cuyahoga
County Land Reutilization Corporation deeded the
property to East Side Automotive Service, Inc., a

Appendix D-4
privately held corporation. East Side Automotive
Service, Inc. apparently paid nothing for the property.
Thus, after the dust settled, Feltner no longer owned
the real estate; East Side Automotive Service, Inc. did.
And Cuyahoga County collected no tax dollars.
The Board of Revision’s exercise of judicial
power in hearing and deciding a tax foreclosure case
and the manner in which Feltner’s case was handled,
violate well-established constitutional principles of
this state. Thus, the entirety of the Board of Revision
proceedings is a nullity. Relator, Elliott G. Feltner
(“Feltner”), files this Complaint seeking a writ of
prohibition against the Respondent Cuyahoga County
Board of Revision (“Board of Revision”) and its
members, Respondents Armond Budish, Dennis G.
Kennedy,
and
Michael
Gallaher
(“Budish,”
“Kennedy,” and “Gallagher,” respectively, or
“Members,” collectively), relating to their exercise of
judicial power against Feltner under the auspices of
R.C. 323.65, et seq.
Further,
Mr.
Feltner’s
property
was
appropriated by governmental entities without
compensation in violation of the Fifth Amendment to
the United States Constitution and Article I Section
19 of the Ohio Constitution. A governmental agency
cannot simply take someone’s land and give it to
another private party. Therefore, Feltner also seeks a
writ of mandamus against Respondents W.
Christopher Murray II (“Murray”), Cuyahoga County,
Ohio (“County”) and the Cuyahoga County Land
Reutilization Corporation (“Land Bank”) directing
them to institute appropriation proceedings in
accordance with law to compensate Feltner for the
value of the real property taken from him and granted
to the Land Bank in violation of Art. I, Sec. 19 of the
Ohio Constitution.

Appendix D-5
For his Complaint, Feltner says as follows:
JURISDICTION AND PARTIES
1.

This Court has jurisdiction over this matter
pursuant to Art. IV, Sec. 2(B)(l)(b) and (d) of the
Ohio Constitution and Ohio Revised Code
§ 2731.01 et seq.

2.

Feltner was the defendant in Treasurer,
Cuyahoga County, Ohio v. Elliott G Feltner, et
al., Cuyahoga County Board of Revision Case
No. BR 010620 (“Board of Revision Case”),
which was an expedited tax foreclosure case
commenced and prosecuted by Murray, as
Plaintiff, in the Board of Revision pursuant to
R.C. 323.65, et seq. to foreclose the lien for
delinquent real estate taxes owed on real
property located at 18927 St. Clair Ave.,
Cleveland, Ohio.

3.

At the time of the commencement of the Board
of Revision Case, Feltner owned 18927 St. Clair
Ave., Cleveland, Ohio (the “Property”). The
Property, located in Cuyahoga County, Ohio, is
identified as Permanent Parcel No. 114-26-004
and is a roughly 0.63 acre commercial property.

4.

The Board of Revision is an administrative
board of Cuyahoga County, Ohio, formed and
operated pursuant to R.C. 5715.01, et seq. and
the Charter of Cuyahoga County (the
“Charter”), Sec. 6.02. Upon information and
belief, the current members of the Board of
Revision are Budish, Kennedy, and Gallagher.

5.

Budish is the duly elected County Executive of
Cuyahoga County, Ohio and possesses such
powers and duties as are provided by the

Appendix D-6
Charter and the general law of Ohio. Budish is
a member of the Board of Revision. Budish is
also a member of the Board of Directors of the
Land Bank. Budish is named as a defendant
herein solely in his official capacities.
6.

Kennedy is the appointed Fiscal Officer of
Cuyahoga County, Ohio and possesses such
powers and duties as are provided by the
Charter and the general law of Ohio. Under the
Charter, the Fiscal Officer has, inter alia, all
the powers granted to, and duties imposed on,
county auditors. Kennedy was appointed Fiscal
Officer by Budish and serves in that position at
the pleasure of Budish. Kennedy is a member of
the Board of Revision. Kennedy is named as a
defendant herein solely in his official
capacities.

7.

Gallagher is a member of the Cuyahoga County
Council and possesses such powers and duties
as are provided by the Charter of Cuyahoga
County and the general law of Ohio. Gallagher
is a member of the Board of Revision as the
representative of the Cuyahoga County
Council. Gallagher is named as a defendant
herein solely in his official capacities.

8.

Murray is the appointed Treasurer of Cuyahoga
County, Ohio and possesses such powers and
duties as are provided by the Charter of
Cuyahoga County and the general law of Ohio.
Murray was appointed Treasurer by Budish
and serves in that position at the pleasure of
Budish. Murray is also a member of the Board
of Directors of the Land Bank. Murray is named
as a defendant herein solely in his official
capacities.

Appendix D-7
9.

The Land Bank is an Ohio not-for-profit
corporation incorporated by the County in 2009
pursuant to Revised Code Chapter 1724. The
Land Bank is operated as a county land
reutilization corporation for the essential
governmental purposes provided for under
Revised Code Chapters 1724 and 5722. Budish
and Murray are permanent members of the
Board of Directors of the Land Bank, as is a
member of the Cuyahoga County Council.

10. The formation of the Land Bank was authorized
by a resolution adopted by the Cuyahoga
County Board of Commissioners on April 9,
2009 which found the need for “the
implementation of a land reutilization program
to foster either the return of such
nonproductive land to tax revenue generating
status or the devotion thereof to public use.”
The resolution went on to state that the
formation of the Land Bank was in furtherance
of the implementation of the County’s land
reutilization program.
11. The County is a body politic and corporate
organized under Chapter 302 of the Revised
Code and possesses and exercises such powers
as are granted by the Charter of Cuyahoga
County and the general law.
12. Mike DeWine is the Attorney General of the
State of Ohio and is named for notice purposes
only because this suit challenges the
constitutionality of several statutes of the State
of Ohio.

Appendix D-8
BOARD OF REVISION FORECLOSURES
13. County boards of revision are statutorily
created and charged with hearing complaints
regarding real estate valuations by the County
Auditor.
14. Under R.C. 5715.02, the members of a board of
revision are the county auditor, county
treasurer, and a member of the county
commission. That statute also provides that a
board of revision “may provide for one or more
hearing boards when they deem the creation of
such to be necessary to the expeditious hearing
of valuation complaints. Each such official may
appoint one qualified employee from the
official’s office to serve in the official’s place and
stead on each such board for the purpose of
hearing complaints as to the value of real
property only, ... “
15. Cuyahoga County, Ohio has adopted an
alternative form of county government
pursuant to R.C. 302.01, and under its county
charter, the members of the Board of Revision
are (1) the County Executive, (2) the County
executive’s choice of either the county fiscal
office or county treasurer, and (3) a member of
the county council.
16. The Charter of Cuyahoga County (the
“Charter”) prohibits the actual Board of
Revision Members from presiding over real
estate valuation matters. Rather, the Charter
provides that the Board of Revision may
appoint one or more three-person hearing
panels to hear and decide real estate valuation
complaints. The Charter does not authorize
hearing panels to hear foreclosure cases

Appendix D-9
brought in the Board of Revision under R.C.
323.66. Under the Charter, the members of
hearing panels serve at the pleasure of the
Board of Revision.
17. In 2008, the General Assembly enacted a
statutory scheme which granted to county
boards of revision the authority to preside over
expedited tax foreclosure cases involving
unoccupied lands. R.C. 323.65-.79.
18. Foreclosures relating to unoccupied lands are
like any other tax foreclosure with a few
notable exceptions:
A. They can be had only on property deemed
unoccupied, as defined by R.C. 323.65.
B. They may be commenced and prosecuted in
county boards of revision.
C. Foreclosures filed in the board of revision
are not heard by a judge. They are heard by
the members of the board of revision.
D. The Rules of Civil Procedure do not apply to
board of revision foreclosures, except for
those rules relating to service of process. But
even with respect to those rules, the statutes
modify the methods for service of process.
Also, individual county boards of revision
can adopt rules of procedure to be applied to
these foreclosures.
E. Upon judgment of foreclosure, a sale of the
property is not required. Rather, the
property may be transferred directly to an
electing municipality or county land
reutilization corporation. If a direct transfer

Appendix D-10
of property is ordered, all taxes,
assessments and other impositions on the
property are waived by the county.
F. A direct transfer of the property may be
ordered in two circumstances: (I) when the
amount of the impositions (i.e. taxes,
assessments, etc. owed on the property)
exceed the value of the property, or (2) when
the Treasurer elects the employ the
alternative redemption period, in which
case the property owner may redeem the
prope1iy within 28 days of the adjudication
of foreclosure. If the property is not timely
redeemed, then the sheriff issues a deed to
the
electing
municipality
or
land
reutilization
corporation
without
consideration.
THE BOARD OF REVISION CASE
19. Murray, as Plaintiff, commenced the Board of
Revision Case against Feltner on November 9;
2015 pursuant to 323.66, et seq. to collect
delinquent real estate taxes owed on the
Property.
20. At the time suit was commenced, certified
delinquent taxes on the Property were
$9,353.25, and total taxes owed relative to the
Property were $42,785.26.
21. At the time suit was commenced, the market
value of the Property, as set by the Cuyahoga
County Fiscal Officer, was $144,500. Aside
from the lien for real estate taxes, the property
was unencumbered.

Appendix D-11
22. The initial complaint filed by Murray did not
allege that the Property was vacant or
abandoned. Nor did it allege the presence of any
of the factors set forth in R.C. 323.65(F). The
complaint did, however, mention R.C. 323.65.78 as a possible statutory basis for the lawsuit.
The complaint also mentioned that the relief
requested might include direct transfer of the
Property under R.C. 323.78.
23. On August 1, 2016, Murray filed an amended
complaint. The amendment corrected the
spelling of Feltner’s first name. Like the initial
complaint, the amended complaint did not
allege that the Property was vacant or
abandoned. Nor did it allege the presence of any
of the factors set forth in R.C. 323.65(F).
Further, the amended complaint did not
mention R.C. 323.65-.79 or request a direct
transfer of the property pursuant to the
alternative right of redemption found in R.C.
323.78. In fact, the only relief requested in the
amended complaint was for the property be sold
at sheriff sale.
24. Soon after commencement of the Board of
Revision Case, the Land Bank, through its staff
attorney, executed an affidavit, ostensibly on
behalf of the City of Cleveland, that stated that
the Land Bank had determined that the
acquisition of the Property was “eligible for the
implementation
of
an
effective
land
reutilization program.” The affidavit did not
mention any of the factors set forth in R.C.
323.65(F). The affidavit went on to assert that
the City of Cleveland did not want to acquire
the Property for its land reutilization program
but that the Land Bank did want to acquire the
Property.

Appendix D-12
25. Feltner was never properly served with the
summons and complaint in the Board of
Revision Case. He learned of the Board of
Revision Case from a title agency who had
performed a title search for a prospective buyer
of the Property. The case proceeded to final
hearing on June 21, 2017. Feltner was not
aware of the date for the final hearing and did
not attend.
26. The matter was not heard by the actual
Members of the Board of Revision. Rather, the
foreclosure case was heard and decided by a
hearing panel appointed pursuant to the
Charter to hear valuation complaints.
27. At the final hearing, the hearing panel called
the case, and the prosecutor called a witness,
identified only as “Ms. Smith.” No exhibits were
offered into evidence, but the witness testified
that the “Cuyahoga County Land Bank is
interested in the parcel.” She also testified that
“the impositions do not exceed the fair market
value, therefore the property will transfer via
the alternative right of redemption to the
County Land Bank” The witness then testified
that the estimated impositions on the Property
were $65,189.94 and the fair market value of
the Property was $144,500.00.
28. At the end of Ms. Smith’s testimony, the
hearing panel (a) found in favor of Murray on
the foreclosure claim, (b) found that the Land
Bank had “petitioned to acquire the property,”
(c) ordered that the alternative redemption
period of R.C. 323.65(J) and 323.78 apply, and
(d) ordered the Sheriff to issue a deed to the
Property directly to the Land Bank at the
expiration of the alternative redemption period.

Appendix D-13
29. At the direction of the Board of Revision
hearing panel, a sheriff’s deed was issued
transferring the Property to the Land Bank on
July 28, 2017.
30. As a result of the direct transfer of the Property
to the Land Bank, all taxes, assessments, and
impositions owed to the County were waived
pursuant to R.C. 323.78(B). The County
received nothing through the foreclosure
process.
31. On August 21, 2017, the Land Bank issued a
Quit Claim deed for the Property to East Side
Automotive Services Inc. Upon information and
belief, no consideration was given by East Side
Automotive Services, Inc. for the Property.
Upon information and belief, East Side
Automotive Service, Inc. now uses the Property
as an automotive repair facility.
32. Feltner has received no compensation for the
Property.
33. On November 3, 2017, Feltner filed a Motion to
Vacate Judgment the Board of Revision Case
for lack of service of process. No response has
been filed to the Motion, and the Board of
Revision has taken no action on the motion.
Count I
Prohibition
34. Art. IV, Sec. I of the Ohio Constitution vests all
judicial power of the State of Ohio in Ohio’s
courts.
35. Through enacting R.C. 323.65-.79, the General
Assembly impermissibly granted judicial power

Appendix D-14
to an executive branch board in violation of Art.
IV, Sec. I of the Ohio Constitution.
36. Because the General Assembly exceeded its
constitutional power, the enactment of R.C.
323.65-.79 is void, and all actions taken
thereunder are a nullity.
37. The Board of Revision hearing panel exercised
jurisdiction in the Board of Revision Case that
it patently and unambiguously lacked.
38. Prohibition is needed to correct the results of
the jurisdictionally unauthorized actions of the
Board of Revision hearing panel.
39. Feltner has no plain and adequate remedy in
the ordinary course of the law.
Count II
Prohibition
40. Feltner restates the allegations of paragraphs 1
through 39 above as if fully rewritten herein.
41. The authority to foreclose the state’s lien for
taxes granted by R.C. 323.66, is limited to those
delinquent lands that are abandoned, as that
term is defined in R.C.323.65.
42. Because county boards of revision are creations
of the legislature, they possess only those
powers that the General Assembly expressly
grants to them.
43. In order for a county board of revision to possess
the power to order the foreclosure of delinquent
property, there must be a finding by the board

Appendix D-15
of revision that the property is abandoned, as
that term is defined in R.C. 323.65.
44. Because there was no allegation in the
Complaint or the Amended Complaint that the
Property was abandoned, the jurisdiction of the
Board of Revision was not invoked by the filing
of the Complaint or Amended Complaint.
45. Because no evidence was presented at any time
that tended to prove that the Property was
abandoned, the Board of Revision lacked the
statutory power granted in R.C. 323.65-.79 to
foreclose the state’s lien on the Property.
46. As a result, the Board of Revision hearing panel
exercised jurisdiction in the Board of Revision
Case that it patently and unambiguously
lacked.
47. Prohibition is needed to correct the results of
the jurisdictionally unauthorized actions of the
Board of Revision hearing panel.
48. Feltner has no plain and adequate remedy in
the ordinary course of the law.
Count III
Prohibition
49. Feltner restates the allegations of paragraphs I
through 48 above as if fully rewritten herein.
50. Under both the Charter and the general law of
Ohio, Murray is required to be the plaintiff in
all tax foreclosure cases commenced in the
Board of Revision.

Appendix D-16
51. Pursuant to R.C. 323.78, Murray alone has the
power to invoke the alternative redemption
period which permits the direct transfer of real
property to the Land Bank.
52. Because Murray was appointed by, and serves
at the pleasure of, Budish, Murray’s interest in
prosecuting board of revision tax foreclosures is
the same as Budish’s.
53. Because Kennedy was appointed by, and serves
at the pleasure of, Budish, Kennedy’s interest
in deciding board of revision tax foreclosure
cases is the same as Budish’s.
54. Because Budish and Murray are permanent
members of the board of directors of the Land
Bank, they have an interest in prosecuting and
deciding Board of Revision tax foreclosure cases
in a manner that results in the property being
directly transferred to the Land Bank.
55. The result of these relationships is that Budish
effectively controls both the plaintiff who
prosecutes and the Board of Revision hearing
panel that decides all tax foreclosure cases
commenced in the Board of Revision. Further,
Budish and Murray are members of the board
of directors of the organization that directly
benefits from the orders issued by the Board of
Revision.
56. The proceedings in the Board of Revision Case
are void because the statutes controlling such
cases are structured so as to violate the
separation-of-powers among the branches of
county government and to deny defendants in
such cases due process of law.

Appendix D-17
57. The hearing panel that decided the Board of
Revision Case patently and unambiguously
lacked jurisdiction to do so.
58. Prohibition is needed to correct the results of
the jurisdictionally unauthorized actions of the
hearing panel.
59. Feltner has no plain and adequate remedy in
the ordinary course of the law.
Count IV
Prohibition
60. Feltner restates the allegations of paragraphs I
through 59 above as if fully rewritten herein.
61. The Board of Revision Case was heard and
decided by a hearing panel created and
empowered by the Cuyahoga County Charter.
62. Neither the Charter nor the general law of Ohio
grants to board of revision hearing panels the
power to hear and decide foreclosure cases
prosecuted under R.C. 323.65-.79.
63. The hearing panel that decided the Board of
Revision Case patently and unambiguously
lacked jurisdiction to do so.
64. Prohibition is needed to correct the results of
the jurisdictionally unauthorized actions of the
Board of Revision hearing panel.
65. Feltner has no plain and adequate remedy in
the ordinary course of the law.

Appendix D-18
Count V
Prohibition
66. Feltner restates the allegations of paragraphs I
through 65 above as if fully rewritten herein.
67. The power purportedly granted to boards of
revision under R.C. 323.78 -to directly transfer
private real property to an electing municipal
corporation, township, county, school district,
community development corporation, or county
land reutilization corporation without the
showing of a public need - is contrary to and
irreconcilable with Art. I, Sec. 19 of the Ohio
Constitution, which limits the power of Ohio
government to take private property only for
public use.
68. Because of this conflict, the Board of Revision
hearing panel patently and unambiguously
lacked jurisdiction to order the transfer of the
Property to the Land Bank.
69. Prohibition is needed to correct the results of
the jurisdictionally unauthorized actions of the
Board of Revision hearing panel.
70. Feltner has no plain and adequate remedy in
the ordinary course of the law.
Count VI
Prohibition
71. Feltner restates the allegations of paragraphs 1
through 70 above as if fully rewritten herein.
72. The power purportedly granted to boards of
revision under R.C. 323.78 – to directly transfer
private real property to an electing municipal

Appendix D-19
corporation, township, county, school district,
community development corporation, or county
land reutilization corporation, without first
requiring payment of compensation – is
contrary to and irreconcilable with Art. I, Sec.
19 of the Ohio Constitution, which limits the
power of Ohio government to take private
property only after payment or deposit of such
compensation.
73. Because of this conflict, the Board of Revision
hearing panel patently and unambiguously
lacked jurisdiction to order the transfer of the
Property to the Land Bank.
74. Prohibition is needed to correct the results of
the jurisdictionally unauthorized actions of the
Board of Revision hearing panel.
75. Feltner has no plain and adequate remedy in
the ordinary course of the law.
Count VII
Mandamus
76. Feltner restates the allegations of paragraphs 1
through 75 above as if fully rewritten herein.
77. The direct transfer of the Property to the Land
Bank constitutes a taking of private property
under Art. I, Sec. 19 of the Ohio Constitution
and the Fifth and Fourteenth Amendments to
the Constitution of the United States of
America.
78. The Land Bank and the County are agencies as
defined in R.C. 163.01.

Appendix D-20
79. Through their actions, Murray, the Land Bank,
and the County deprived Feltner of title and
possession to real property, the value of which
far exceeded the amount owed in taxes. In fact,
the Property was taken without regard for the
tax liability owed on the Property.
80. The Land Bank and the County deprived
Feltner of the Property with the intent to
subsequently transfer the Property to a private
person, for private use, and for no or little
consideration.
81. The Land Bank and the County have failed to
fulfill their statutory duty to commence an
appropriation proceeding, to prove the
propriety of the taking, and to pay just
compensation for the taking of Feltner’s
property.
82. Feltner has no plain and adequate remedy in
the ordinary course of the law to obtain a jury
assessment of compensation for the Property.
83. Pursuant to the Fifth and Fourteenth
Amendments
to
the
United
States
Constitution, Article I, § 19 of the Ohio
Constitution, and Ohio Revised Code Chapter
163, the Land Bank and the County are liable
to Feltner for the fair market value of the
Property.
84. Pursuant to the Fifth and Fourteenth
Amendments
to
the
United
States
Constitution, Article I, § 19 of the Ohio
Constitution, Ohio Revised Code Chapter 2731,
42 U.S.C. § 1988(b), and 42 U.S.C. § 1983, the
Land Bank and the County are liable to Feltner
for the attorneys’ fees Feltner incurred in

Appendix D-21
vindicating his constitutional right to just
compensation.
CONCLUSION
Pursuant to Supreme Court Practice Rule
12.02(B), affidavits supporting the statement of facts
upon which the claim for relief is based are attached
hereto.
WHEREFORE, Relator requests relief from
this Court as follows:
1)
Issue a Peremptory Writ of Prohibition
invalidating, in their entirety, the proceedings before
the Cuyahoga County, Ohio Board of Revision in Case
No. BR 010620;
2)
Issue an Alternative Writ pursuant to
S.Ct.Prac.R. 12.05, to order Respondents to show
cause why a Peremptory Writ should not be issued;
3)
Issue a Peremptory Writ of Mandamus
compelling Respondents Cuyahoga County, Ohio and
the Cuyahoga County Land Reutilization Corporation
to initiate appropriation proceedings pursuant to Ohio
Revised Code Chapter 163;
4)
Issue an Alternative Writ pursuant to
S.Ct.Prac.R. 12.05, to order Respondents Cuyahoga
County, Ohio and the Cuyahoga County Land
Reutilization Corporation to show cause why they
should not be compelled to initiate appropriation
proceedings pursuant to Ohio Revised Code Chapter
163;
5)

Award Relators their attorneys’ fees; and

Appendix D-22
6)
Issue such other and further relief as may be
available either at law or in equity.
Respectfully submitted,
/s/ Marc E. Dann
Marc E. Dann (0039425)
Whitney Kaster (0091540)
Brian D. Flick (0081605)
THE DANN LAW FIRM CO.,
LPA
P.O. Box 6031040
Cleveland, OH 44103
(216) 373-0539- Main Office
(216) 373-0536 - Fax
notices@dannlaw.com
Counsel for Relator

Appendix E-1
Ohio Revised Code provisions at issue:
323.65 Definitions
As used in sections 323.65 to 323.79 of the Revised
Code:
(A) “Abandoned land” means delinquent lands or
delinquent vacant lands, including any improvements
on the lands, that
are unoccupied and that first appeared on the list
compiled under division (C) of section 323.67 of the
Revised Code, or the
delinquent tax list or delinquent vacant land tax list
compiled under section 5721.03 of the Revised Code,
at whichever of the following times is applicable:
(1) In the case of lands other than agricultural lands,
at any time after the county auditor makes the
certification of the delinquent land list under section
5721.011 of the Revised Code;
....
(F)(1) “Unoccupied,” with respect to a parcel of land,
means any of the following:
(a) No building, structure, land, or other improvement
that is subject to taxation and that is located on the
parcel is physically inhabited as a dwelling;
(b) No trade or business is actively being conducted on
the parcel by the owner, a tenant, or another party
occupying the parcel pursuant to a lease or other legal
authority, or in a building, structure, or other
improvement that is subject to taxation and that is
located on the parcel;

Appendix E-2
(c) The parcel is uninhabited and there are no signs
that it is undergoing a change in tenancy and remains
legally habitable, or that it is undergoing
improvements, as indicated by an application for a
building permit or other facts indicating that the
parcel is experiencing ongoing improvements.
(2) For purposes of division (F)(1) of this section, it is
prima-facie evidence and a rebuttable presumption
that may be rebutted to the county board of revision
that a parcel of land is unoccupied if, at the time the
county auditor makes the certification under section
5721.011 of the Revised Code, the parcel is not
agricultural land, and two or more of the following
apply:
(a) At the time of the inspection
county, municipal corporation, or
the parcel is located, no person,
inhabits, or is visibly present
inspection of, the parcel.

of the parcel by a
township in which
trade, or business
from an exterior

(b) No utility connections, including, but not limited
to, water, sewer, natural gas, or electric connections,
service the parcel, or no such utility connections are
actively being billed by any utility provider regarding
the parcel.
(c) The parcel or any improvement thereon is boarded
up or otherwise sealed because, immediately prior to
being boarded up or sealed, it was deemed by a
political subdivision pursuant to its municipal,
county, state, or federal authority to be open, vacant,
or vandalized.
(d) The parcel or any improvement thereon is, upon
visible inspection, insecure, vacant, or vandalized.
….

Appendix E-3
(J) “Alternative redemption period,” in any action to
foreclose the state's lien for unpaid delinquent taxes,
assessments, charges, penalties, interest, and costs on
a parcel of real property pursuant to section 323.25,
sections 323.65 to 323.79, or section 5721.18 of the
Revised Code, means twenty-eight days after an
adjudication of foreclosure of the parcel is journalized
by a court or county board of revision having
jurisdiction over the foreclosure proceedings. Upon
the expiration of the alternative redemption period,
the right and equity of redemption of any owner or
party shall terminate without further order of the
court or board of revision. As used in any section of the
Revised Code and for any proceeding under this
chapter or section 5721.18 of the Revised Code, for
purposes of determining the alternative redemption
period, the period commences on the day immediately
following the journalization of the adjudication of
foreclosure and ends on and includes the twentyeighth day thereafter.
323.78
Election
redemption period

to

invoke

alternative

(A) Notwithstanding anything in Chapters 323.,
5721., and 5723. of the Revised Code, a county
treasurer may elect to invoke the alternative
redemption period in any petition for foreclosure of
abandoned lands under section 323.25, sections
323.65 to 323.79, or section 5721.18 of the Revised
Code.
(B) If a county treasurer invokes the alternative
redemption period pursuant to this section, and if a
municipal corporation, township, county, school
district, community development organization, or

Appendix E-4
county land reutilization corporation has requested
title to the parcel, then upon adjudication of
foreclosure of the parcel, the court or board of revision
shall order, in the decree of foreclosure or by separate
order, that the equity of redemption and any statutory
or common law right of redemption in the parcel by its
owner shall be forever terminated after the expiration
of the alternative redemption period and that the
parcel shall be transferred by deed directly to the
requesting municipal corporation, township, county,
school district, community development corporation,
or county land reutilization corporation without
appraisal and without a sale, free and clear of all
impositions and any other liens on the property, which
shall be deemed forever satisfied and discharged. The
court or board of revision shall order such a transfer
regardless of whether the value of the taxes,
assessments, penalties, interest, and other charges
due on the parcel, and the costs of the action, exceed
the fair market value of the parcel. No further act of
confirmation or other order shall be required for such
a transfer, or for the extinguishment of any statutory
or common law right of redemption.
(C) If a county treasurer invokes the alternative
redemption period pursuant to this section and if no
community development organization, county land
reutilization corporation, municipal corporation,
county, township, or school district has requested title
to the parcel, then upon adjudication of foreclosure of
the parcel, the court or board of revision shall order
the property sold as otherwise provided in Chapters
323. and 5721. of the Revised Code, and, failing any
bid at any such sale, the parcel shall be forfeited to the

Appendix E-5
state and otherwise disposed of pursuant to Chapter
5723. of the Revised Code.
5721.20 Unclaimed moneys remaining to owner
Except in cases where the property is transferred
without sale to a municipal corporation, township,
county, community development organization, or
county land reutilization corporation pursuant to the
alternative redemption period procedures contained
in section 323.78 of the Revised Code, any residue of
moneys from the sale or foreclosure of lands
remaining to the owner on the order of distribution,
and unclaimed by such owner within sixty days from
its receipt, shall be paid into the county treasury and
shall be charged separately to the county treasurer by
the county auditor, in the name of the supposed
owner. The treasurer shall retain such excess in the
treasury for the proper owner of such lands upon
which the foreclosure was had, and upon demand by
such owner, within three years from the date of
receipt, shall pay such excess to the owner. If the
owner does not demand payment of the excess within
three years, then the excess shall be forfeited to the
delinquent tax and assessment collection fund created
under section 323.261 of the Revised Code, or in
counties that have established a county land
reutilization corporation fund under section 323.263
of the Revised Code, to the county land reutilization
corporation fund.

